U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: CJ CheilJedang Corp. v. International Trade Comm’n, No. 19-1062
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 24,
2020. The government’s response is now due, after two extensions, on May 11, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1062
CJ CHEILJEDANG CORP., ET AL.
ITC, ET AL

CHARLES DUAN
R STREET INSTITUTE
1212 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20005
202-525-5717
CDUAN@RSTREET.ORG
JAMES F. HALEY, JR.
HALEY GUILIANO LLP
75 BROAD ST
SUITE 1000
NEW YORK, NY 10064
DOUGLAS HARRY HALLWARD-DRIEMEIER
ROPES & GRAY, LLP
2099 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006-6807
202-508-4776
DOUGLAS.HALLWARDDRIERMEIER@ROPESGRAY.COM
CHARLES EDMUND LIPSEY
FINNEGAN, HENDERSON, FARABOW,
GARRETT, DUNNER, LLP
TWO FREEDOM SQUARE
11955 TWO FREEDOM SQUARE
RESTON, VA 20190-5675
CHARLES.LIPSEY@FINNEGAN.COM

STEVEN PEPE
ROPES & GRAY LLP
1211 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
PHILLIP Z. YAO
ROPES & GRAY LLP
800 BOYLSTON STREET
BOSTON, MA 02199

